NO:
IN THE

Supreme Court of the United Statey
OCTOBER TERM, 2020

 

CHEDDIE LAMAR GRIFFIN,
Petitioner,

Vv.

UNITED STATES OF AMERICA
Respondent.

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, CHEDDIE LAMAR GRIFFIN, has enclosed Petition for Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit without prepayment of costs and to proceed in
forma pauperis in accordance with Supreme Court Rule 39, and 18 U.S.C. ยง 3006A(d)(6).The filing of this
Petition is a continuation of the representation of the Defendant under a Criminal Justice Act appointment
of the undersigned by the Eleventh Circuit. In accordance with 18 U.S.C. ยง 3006A(d)(6), no affidavit as
required by Supreme Court Rule 39, need be filed.

WHEREFORE, Petitioner, CHEDDIE LAMAR GRIFFIN, asks for leave to proceed in

forma pauperis.

Dated this 17th day of June, 2021. Wi rune
(

Noel G. Lawrence, Esquire
Florida Bar No.: 844251

101 East Union Street, Suite 200
Jacksonville, Florida 32202
Telephone: 904-356-9928
Facsimile: 904-356-6762

Email: nglawren@lpnlaw.com
Attorney for Appellant/Defendant
Cheddie Lamar Griffin

14
